Supreme Court ofthe United States

BECKE R GALLA GHER
Briefs

and

United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Reply Brief for Responde ntsCross Petitione rs Neill Hurley and John Nantz in 19840 California , et al. v. Texas, et al. and 19-1019 Texas,
et al. v. California, et al., were sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 18th day of August, 2020:
Samuel Passchier Siegel
California Departme nt of Justice
1300 I Street
Sacramen to, CA 95814
(916) 210-6269
sam.sie gel@doj.ca.gov

Counsel for Petitioners
California, et al.
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
DEPART MENT OF JUSTICE
950 Pennsylv ania Ave., N.W.
Washingt on, DC 20530-000 1
(202) 514-2217
SupremeC tBriefs@U SDOJ.gov

Counsel for United States, et al.

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Kyle Douglas Hawkins
Texas Attorney General's Office
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
kyle .hawkins@oag. texas. gov
(512) 936-1700

Counsel for Respondents
State of Texas, et al.
Douglas Neal Letter
219 Cannon House Office Building
Washington, DC 20515
(202) 225-9700
douglas.letter@mail.house.gov

Counsel for United States House of Representatives
Robert Henneke
Counsel of Record
Munera Al-Fuhaid
J. Aaron Barnes
Texas Public Policy Foundation
901 Congress Avenue
Austin, TX 78701
(512) 472-2700
r henneke@texaspolicy.com
Tyler R. Green
Consovoy McCarthy PLLC
1600 Wilson Boulevard
Suite 700
Arlington, VA 22209
(703) 243-9423
tyler@consovoymccarthy.com

Counsel for Respondents Neill Hurley and John Nantz

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 18, 2020.

Donna J. Wo
Becker Gallagher Leg Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

Cuu~~J>JV- /f'

Notary Public

I

dO dO

\J

[seal]

.

